           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        IMPROPER PAYMENTS
    RESULTING FROM UNRESOLVED
        DELAYED CLAIMANTS

    September 2009   A-09-08-18006




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                               SOCIAL SECURITY
MEMORANDUM

Date:      September 25, 2009                                                    Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Improper Payments Resulting from Unresolved Delayed Claimants (A-09-08-18006)


           OBJECTIVE
           Our objective was to determine whether the Social Security Administration (SSA) had
           taken appropriate actions to resolve delayed auxiliary or survivor claimants and pay
           underpayments to all affected beneficiaries.

           BACKGROUND

           SSA administers the Old-Age, Survivors and Disability Insurance program under Title II
                                      1
           of the Social Security Act. This program provides monthly benefits to retired and/or
           disabled workers and their families and to survivors of deceased workers. Auxiliary
           benefits are paid to the spouses and children of retired and/or disabled workers while
           survivor benefits are paid to the widows and children of deceased workers.

           SSA requires that auxiliary and survivor claimants submit evidence to establish their
           entitlement to benefits. Individuals who have filed a claim, but who have not provided
           all the required evidence of eligibility and whose entitlement would affect other
           beneficiaries who are receiving benefits are placed in a delayed payment status. When
           a claimant is placed in delayed status, SSA must control the claim by establishing a
           diary in the Modernized Claims System. These diaries remind SSA staff that an
           outstanding issue exists, and they should follow up to resolve a delayed claimant. 2

           SSA considers delayed claimants to be entitled when computing benefit payments for
           the currently entitled beneficiaries on the same record. This protects delayed claimants
           from loss of benefits and prevents overpayments to currently entitled beneficiaries if
           SSA subsequently determines the delayed claimants are entitled. If, however, the
           delayed claimant is denied, the benefit payments to the entitled beneficiaries are

           1
               The Social Security Act, § 201 et seq., 42 U.S.C. § 401 et seq.
           2
               SSA, Program Operations Manual System (POMS) GN 01010.140 and SM 00805.050.
Page 2 - The Commissioner


increased. 3 We estimate that, as of November 3, 2008, there were approximately
12,360 retired, disabled, or deceased wage earner records with unresolved delayed
                                 4
auxiliary or survivor claimants.

RESULTS OF REVIEW
SSA needs to improve its controls and procedures to ensure appropriate actions are
taken to resolve delayed auxiliary or survivor claimants and properly pay all affected
beneficiaries. When a claimant is delayed, either the currently entitled beneficiaries or
the delayed claimants will be underpaid. Based on a random sample of 50 payment
records, we estimate that

•         if the delayed claimants were approved, these auxiliary or survivor claimants were
          due about $29.6 million because SSA had not resolved the delayed claimants timely
          or

•         if the delayed claimants were not approved, currently entitled beneficiaries on the
          same records were improperly paid about $22 million because SSA had not
          resolved the delayed claimants timely.

Finally, we estimate that the currently entitled auxiliaries or survivors may not be
properly paid $67.6 million unless SSA takes action to resolve their delayed claimants
(see Appendix C).

These cases were not corrected because SSA did not have the controls in place to
ensure claimants placed in delayed status were resolved within appropriate time
frames.

Benefits Withheld from Delayed Claimants

According to SSA policy, every reasonable effort should be made to obtain the
evidence necessary to determine a claimant’s entitlement. Evidence that may be
required includes proof of age, marriage, and dependent children’s relationships.
When required documentation is not readily available, SSA places the claimant in
delayed payment status. 5

SSA should make a follow-up request for the necessary evidence, unless the claimant
clearly indicates a lack of interest or an unwillingness to cooperate. According to SSA
policy, claimants should respond to the follow-up request within 15 days. If the claimant

3
    ld.
4
  The Master Beneficiary Record (MBR) is divided into 20 segments, with each segment representing
5 percent of all records. We identified a population of 618 records from Segment 12 of the MBR. As a
result, we estimate that there were 12,360 (618 x 20) MBR records with claimants in delayed status.
5
    SSA, POMS GN 01010.140 and GN 01010.410.
Page 3 - The Commissioner


does not respond within 15 days, a close-out letter should be sent. This letter should
be accompanied by a statement advising the claimant to contact SSA and informing the
claimant that the claim will be denied if a response is not received within 15 days of the
close-out letter (30 days if the claimant resides outside the United States). 6

We estimate there are 12,360 retired, disabled, or deceased wage earner records with
at least 1 auxiliary or survivor claimant in delayed status. Our review of a random
sample of 50 records disclosed that SSA had not resolved the outstanding issues for
23 records that had been delayed over 90 days. Consequently, SSA withheld
$119,996 in benefits from these claimants. Based on these results, we estimate that
benefits totaling about $29.6 million had been withheld for approximately 5,680 records
from June 2002 to December 2008 (see Appendix C).

The 23 cases occurred because, when the claimants were placed in delayed status,
SSA staff did not diary the claims or properly control the claims to ensure they were
resolved. For example, in January 2007, SSA placed a claimant in delayed status and
determined the potential benefits payable to the claimant but withheld the benefits
pending the receipt of additional evidence to support the claim. As of December 2008,
SSA had withheld benefits totaling $8,933 from the claimant. In addition, SSA reduced
the benefits of a currently entitled beneficiary on the same record to prevent an
overpayment. Consequently, this beneficiary may have been underpaid $1,802.

Benefits to Currently Entitled Beneficiaries Were Reduced

When a claimant is placed in delayed payment status, SSA reduces the amount
payable to currently entitled beneficiaries on the same payment record. This is to
ensure that the entitled beneficiaries are not overpaid if SSA subsequently determines
the delayed claimant is eligible for benefits. However, if the claimant does not provide
the necessary evidence to establish eligibility and SSA denies the claim, the benefits
payable to the entitled beneficiaries should be increased.

Since delayed claimants reduce the benefits of currently entitled beneficiaries, we
determined whether any currently entitled beneficiaries were properly paid. Our review
of the 50 sampled records found that 27 had currently entitled beneficiaries who may
not have been properly paid because of delayed claimants. 7 Had SSA taken timely
action on the delayed claimants, these beneficiaries could have been properly paid an
additional $89,229 in benefits. Based on our sample results, we estimate that benefits
totaling about $22 million may not have been properly paid to currently entitled
beneficiaries on approximately 6,680 records because SSA had not taken appropriate
action to resolve the delayed claimants (see Appendix C).


6
    SSA, POMS GN 01010.410.B.1.
7
 In 26 records, the entitled auxiliaries/survivors had their benefits reduced; however, in 1 record, SSA
overpaid the entitled auxiliaries/survivors. In 4 of the 27 records, the claimants had been denied benefits;
however, SSA did not properly adjust the benefit amounts of the entitled auxiliaries and survivors.
Page 4 - The Commissioner


For example, in April 2006, SSA placed a child claimant in delayed status and
appropriately adjusted the benefits of two currently entitled child beneficiaries.
However, as of December 2008, the delayed claimant remained unresolved.
Consequently, the entitled beneficiaries may have been underpaid $5,700 because
their benefits were reduced for 33 months. In addition, if SSA does not resolve the
delayed claimant, the beneficiaries will continue to be underpaid for an additional
13 months. Accordingly, we estimate that SSA may underpay the two
beneficiaries $5,868.

Our analysis of the error cases found that all 27 records affected child beneficiaries
under age 18. If SSA does not properly adjust their benefits, they will be improperly
paid approximately $273,808 in benefits until they, or the delayed claimants, attain
age 18. Projecting these results to our population, we estimate that benefits totaling
about $67.6 million may not be properly paid for approximately 5,200 records (see
Appendix C).

Timeliness in Resolving Delayed Claimants

SSA needs to improve controls to ensure delayed claimants are resolved timely.
Although SSA generates systems alerts for delayed claimants, according to SSA, they
are not intended to be a control mechanism to ensure delayed claimants are resolved
timely. Instead, the alert is created to identify potential claimants remaining in delayed
status for more than 18 months. When the alert is generated, SSA staff must resolve
the delayed claimant. Follow-up alerts are generated quarterly until the delayed
claimant is resolved. 8

For 23 (46 percent) of the 50 records in our sample, SSA had not timely resolved the
delayed claimants. As a result, benefit payments of $119,996 had been withheld from
the claimants. For the 23 records, the median age was 22 months. Of these, nine
(39 percent) were over 2 years old, and two were not resolved after 5 years.




8
    SSA, POMS GN 01010.140 and SM 00619.054.
Page 5 - The Commissioner



                             6

         Number of Records   5

                             4

                             3

                             2

                             1

                             0
                                 4-12   13-18   19-24   25-36    37-48   49-60   > 60
                                                   Number of Months




CONCLUSION AND RECOMMENDATIONS

SSA did not always take appropriate action to resolve delayed auxiliary or survivor
claimants and properly pay all affected beneficiaries. This occurred because the
resolution of delayed claimants was not properly controlled. As a result, we estimate
that benefits totaling about $22 million may not have been properly paid to currently
entitled beneficiaries on approximately 6,680 records. Additionally, we estimate that
currently entitled auxiliaries or survivor beneficiaries may not be properly paid
$67.6 million unless SSA takes action to resolve these delayed claimants. Therefore,
we recommend that SSA:

1. Take corrective action to properly resolve the 28 records with delayed claimants
   identified by our audit.

2. Identify and take corrective action on the population of delayed claimants that have
   been pending more than 90 days.

3. Improve controls to ensure that delayed claimants are resolved within appropriate
   time frames.

4. Remind employees to diary, follow up on, and timely resolve delayed claimants.
Page 6 - The Commissioner


AGENCY COMMENTS
SSA agreed with our recommendations. The Agency’s comments are included in
Appendix D.




                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                             Appendix A

Acronyms
MBR      Master Beneficiary Record
OIG      Office of the Inspector General
POMS     Programs Operations Manual System
SSA      Social Security Administration
U.S.C.   United States Code
                                                                      Appendix B

Scope and Methodology
We obtained a data extract from one randomly selected segment of the Social Security
Administration’s (SSA) Master Beneficiary Record (MBR). The extract consisted of
618 records in which at least 1 claimant had been in delayed status as of
November 2008.

To accomplish our objectives, we

   reviewed the applicable sections of the Social Security Act and SSA’s Program
    Operations Manual System;

   reviewed a random sample of 50 records;

   reviewed queries of SSA’s MBR, Modernized Development Worksheet, Modernized
    Claims System, and Processing Center Action Control System; and

   used SSA’s Online Computational Earnings Menu to calculate the entitled
    auxiliaries’/survivors’ family rates, excluding the delayed claimants.

We determined the computer-processed data from the MBR were sufficiently reliable
for our intended use. We conducted tests to determine the completeness and accuracy
of the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives.

We evaluated the adequacy of SSA’s controls to ensure appropriate actions were taken
to resolve delayed auxiliary or survivor claimants and properly pay all affected
beneficiaries. Specifically, we determined whether SSA’s diary and alert procedures
properly controlled and resolved delayed claimants.

We performed our audit work in Richmond, California, and Baltimore, Maryland,
between February and May 2009. The entity audited was the Office of Operations
under the Deputy Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.
                                                                               Appendix C

Sampling Methodology and Results
We obtained a data extract from one segment of the Social Security Administration’s
(SSA) Master Beneficiary Record (MBR) that consisted of one or more claimants in
delayed status or terminated from a delayed status as of November 2008. Based on
the extract, we identified a population of 618 records.

Claimants in Delayed Status

We randomly selected 50 records from the population of 618 to determine the number
of months the claimants had been in delayed status and the amount of benefits
withheld from these claimants. We found that, as of December 2008, the total amount
of benefits withheld from the claimants was $119,996. In addition, we found that the
entitled beneficiaries on the same records may not have been properly paid $89,229.
Projecting these results to all 20 MBR segments, we estimate that $29.6 million may
have been withheld from auxiliary or survivor claimants for 5,680 records and
$22 million had not been properly paid to entitled auxiliary or survivor beneficiaries on
6,680 records. 1

To estimate the amount of benefits that might not be properly paid to currently entitled
auxiliaries/survivors in the future, we multiplied the December 2008 improper payment
amount paid to each beneficiary by the number of months remaining for them or the
delayed claimant to attain age 18. As a result, we estimate that the entitled auxiliaries
or survivors in 5,200 records may not be properly paid $67.6 million if SSA does not
take action to resolve the delayed claimants’ outstanding issues.

Table 1 – Population and Sample Size

                         Description                                   Number of Records
    Population Size (Data extract from one segment)                          618
    Sample Size                                                               50




1
  The MBR is divided into 20 segments for processing and updating. The segments are determined by the
last two digits of the Social Security number. Each segment represents 5 percent of all records. We
randomly selected a sample of 50 records from our population of 618 records that we extracted from
segment 12 of the MBR.


                                                C-1
Table 2 – Auxiliaries/Survivors’ Improper Payments

                Description                         Number of Records           Additional Benefits
    Sample Results                                          27                         $89,229
    Point Estimate                                         334                      $1,102,870
    Projection - Lower Limit                               260                        $751,303
    Projection - Upper Limit                               406                      $1,454,438
    Estimate for Entire MBR 2                            6,680                    $22,057,400
    Note: All statistical projections are at the 90-percent confidence level.

Table 3 – Estimated Future Improper Payments

                Description                         Number of Records           Additional Benefits
    Sample Results                                          21 3                      $273,808
    Point Estimate                                         260                      $3,384,265
    Projection - Lower Limit                               189                      $1,881,099
    Projection - Upper Limit                               334                      $4,887,431
    Estimate for Entire MBR 4                            5,200                    $67,685,300
    Note: All statistical projections are at the 90-percent confidence level.




2
    Represents the point estimate multiplied by 20 segments.
3
  We did not develop estimates for 6 of the 28 records for the future payments or for the delayed claimants
withheld benefits because 3 of the claims were denied, 2 records had auxiliaries/survivors who were no
longer eligible for benefits, and 1 case did not have any other entitled auxiliaries/survivors on the record.
4
    See Footnote 2.



                                                        C-2
Table 4 – Withheld Delayed Claimants

                Description                         Number of Records           Additional Benefits
    Sample Results                                          23 5                      $119,996
    Point Estimate                                         284                      $1,483,151
    Projection - Lower Limit                               212                        $659,847
    Projection - Upper Limit                               358                      $2,306,454
    Estimate for Entire MBR 6                            5,680                    $29,663,020
    Note: All statistical projections are at the 90-percent confidence level.




5
    See Footnote 3.
6
    Id.


                                                        C-3
                  Appendix D

Agency Comments
                                          SOCIAL SECURITY

MEMORANDUM


Date:      September 8, 2009                                                       Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Improper Payments Resulting From
           Unresolved Delayed Claims" (A-09-08-18006)—INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report findings and
           recommendations.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "IMPROPER PAYMENTS RESULTING FROM UNRESOLVED DELAYED
CLAIMS" A-09-08-18006

We reviewed the findings and recommendations, which identified problems with our ability to
ensure the timely processing of delayed claims. Our challenges with this workload result from
competing workload priorities and limited resources. Below are our responses to the report
findings and recommendations.

Recommendation 1

Take corrective action to properly resolve the 28 delayed claims identified by the audit.

Response

We agree. Once we receive the list of the 28 delayed claims identified by the audit, we will work
with the regional offices to take corrective action.

Recommendation 2

Identify and take corrective action on the population of delayed claims that have been pending
more than 90 days.

Response

We agree. We will work with our systems staff to identify these cases. Once we identify the
cases, we will work with the regional offices to take corrective action.

Recommendation 3

Improve controls to ensure that delayed claims are resolved within appropriate time frames.

Response

We agree. We will work to improve our controls to ensure delayed claimants are resolved within
appropriate time frames.

Recommendation 4

Remind employees to diary, follow-up on, and timely resolve delayed claims.

Response

We agree. We will issue a reminder to employees to diary, follow-up, and timely resolve delayed
claims.


                                                D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Joseph Robleto, Audit Manager

Acknowledgments

In addition to those named above:

   Daniel Hoy, Senior Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-08-18006.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
